~~
I

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

JOSHUA ERIC HAWK CLARK,
Petitioner, *
bf
STATE OF MISSISSIPPI,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5450 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of October, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chl
RENEE J, GOSS 0. Oud rawr '
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41406

 
